Supreme Court, U.S.
FILED

WAIVER

APR 12 2020
OFFICE OF THE CLERK

Supreme Court of the United States
No. 19-1183

Odyssey Contracting Corp.
(Petitioner)

v.,

L & L Painting Co., Inc.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
[21 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
I represent the only listed respondent in the Petition, Respondent L&L Painting Co., Inc.

I am a member of the Bar of the Supreme Court of the United States.
M I am not presently a me m
the Bar of this Court. Should a response be requested,
the respons
.1
ile b a ar me
Signature
Date: April 22, 2020
(Type or print) Name Allen J. Ross
El Mr.

0 Ms.

0 Mrs.

0 Miss

Firm Duane Morris LLP
Address 1540 Broadway
City & State New York, New York

Zip 10036

Phone 212-692-1000
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Chris Georgoulis, Esq.
Cc: GEORGOULIS PLLC
120 Wall Street, Suite 1803
New York, New York 10005
T: 212-425-7854 F: 212-422-5360
Email: cg@georgoulis.com
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

cane

NEW YORK

)

LONDON

orris®

SHANGHAI
ATLANTA
BALTIMORE

SINGAPORE
FIRM and AFFILIATE OFFICES

PHILADELPHIA

WILMINGTON

CHICAGO

MIAMI

WASHINGTON, DC

BOCA RATON

SAN FRANCISCO

PITTSBURGH

ALLEN J. ROSS
DIRECT DIAL: +1 212 692 1021
PERSONAL FAX: +1 212 253 4309
E-MAIL: ajross@duanemorris.com

SILICON VALLEY
SAN DIEGO
LOS ANGELES

NEWARK
LAS VEGAS
CHERRY HILL
LAKE TAHOE

TAIWAN
BOSTON

MYANMAR

wwW.duanemorris.com

OMAN
A GCC REPRESENTATIVE OFFICE
OF DUANE MORRIS

HOUSTON
AUSTIN
HANOI
HO CHI MINH CITY

ALLIANCES IN MEXICO
AND SRI LANKA

April 22, 2020
VIA FEDEX
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Odyssey Contracting Corp. (Petitioner) v. L&L Painting Co., Inc. (Respondent)
Index No. 19-1183

To The Clerk of the Court:
This office is counsel for Respondent L&L Painting Co., Inc. Please find enclosed the
Court's form as executed, waiving Respondent's filing of a brief in opposition to Petitioner's
Petition for Certiorari, subject to a request by the Court for an opposing brief.
Also enclosed is a copy of the Waiver form along with a self-addressed envelope for a
return to me of the form with the Court's stamp.
Thank you.

Allen J. Ross
AJR
Enclosure
cc:

Chris Georgoulis, Esq. (w/ enclosure)

RECEIVED
APR 2 7 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

DUANE MORRIS LLP
1540 BROADWAY NEW YORK, NY 10036-4086

PHONE: +1 212 692 1000 FAX: +1 212 692 1020

